Assessment of the SEC’s Privacy
Program




                                         September 29, 2010
                                             Report No. 485

Assessment and Review Conducted by C5i
                                                      UNITED STATES
                               SECURITIES AND EXCHANGE COMMISSION
                                              WASHINGTON. D.C.    20S49

      OI"I'"ICE 01'"
'N."I:CTOR GENI:RAL



                                         MEMORANDUM
                                                  September 29, 2010

             To:             Jeffery Heslop, Chief Operating Officer (COO), and Acting Chief
                               Information Officer (CIO), Office of Information Technology (OIT)
                             Rosalind Tyson, Regional Director, Los Angeles Regional Office
                              Sharon Sheehan, Associate Executive Director, Office of
                               Administrative Services

             From:           H. David Kotz, Inspector General, Office of Inspector   Gener#~
             Subject:       Assessment of the SEC's Privacy Program, Report No. 485

             This memorandum transmits the U.S. Securities and Exchange Commission
             Office of Inspector General's (OIG) final report detailing the results of our
             assessment of the SEC's Privacy Program. This review was conducted as part
             of our continuous effort to· assess management of the Commission's programs
             and operations, and as a part of our annual audit plan.

             The final report contains 20 recommendations, which if implemented should
             improve the Commission's security posture for protecting Personally Identifiable
             Information. The COO/Acting CIO fully concurred with 12 of the 15
             recommendations addressed to its office, partially concurred with 1
             recommendation, and did not concur with 2 recommendations. The LARO
             Regional Director and the Associate Executive Director, Office of Administrative
             Services concurred with all the recommendations addressed to its office. The
             written responses OIG received to the draft report are included in the
             appendices.

             Within the next 45 days, please provide the OIG with a written corrective action
             plan that is designed to adcr:ass the agreed recommendations. The corrective
             action plan should include inforr:!ation such as the responsible official/point of
             contact, time frames for completing the required actions, and milestones
             identifying how you will address the recommendations cited in this report.




            Assessment of the SEC’s Privacy Program                             September 29, 2010
            Report No. 485
                                                           ii
Should you have any questions regarding this report, please do not hesitate to
contact me or Kelli Brown-Barnes at x-15674. We appreciate the courtesy and
cooperation that you and your staff extended to our staff and contractors.

Attachment

cc:
        Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
        Diego Ruiz, Executive Director, Office of the Executive Director
        Rabia Cebeci, Senior Special Counsel, Los Angeles Regional Office
        Todd Scharf, Chief Information Security Officer-Information Security,
         Office of Information Technology
        Barbara Stance, Chief Privacy Officer, Office of Information Technology




Assessment of the SEC’s Privacy Program                           September 29, 2010
Report No. 485
                                          iii
Assessment of the SEC Privacy Program

                                 Executive Summary
Background. The U.S. Securities and Exchange Commission (SEC or
Commission) Office of Inspector General (OIG) contracted the services of C5i
Federal, Inc. (C5i) to perform an assessment of the SEC’s privacy policies and
procedures and the proper handling of Personally Identifiable Information (PII) in
its headquarters (Station Place), Operations Center (OPC), and regional offices.
The privacy program assessment was conducted in two phases. First, in June
2010, C5i assessed the SEC’s Los Angeles Regional Office’s (LARO) handling of
PII data through a physical inspection, conducting interviews, and Network
Vulnerability Assessment (NVA) 1 of the SEC’s computer network. Second, in
July 2010, C5i performed an assessment of the SEC’s systems located in Station
Place and the Operations Center, to evaluate their network security postures,
and conducted a re-scan of seven of the eight servers previously assessed in
LARO. In addition, C5i conducted an application vulnerability assessment on the
SEC’s “HUB” 2 application to determine how the Commission retained and
secured its PII data within this application. Additionally, C5i reviewed the status
of a prior privacy assessment recommendation that was still open.

Objectives. The primary objectives of the review were to:

    •    Evaluate the adequacy of the SEC’s Privacy Office’s policies and
         procedures, as well as its interaction and involvement with the
         Commission offices and divisions to ensure SEC employees’ privacy;
    •    Perform an in-depth analysis of the privacy requirements and identify the
         SEC processes and procedures that are used to conduct privacy reviews;
    •    Assess whether the privacy office responds to privacy issues in
         accordance with governing SEC, National Institute of Standards and
         Technology (NIST), Office of Management and Budget (OMB) and other
         government guidance and regulations to determine whether improvements
         are needed;
    •    Determine if the SEC has developed and implemented technical,
         managerial, or operational privacy-related controls to effectively mitigate
         known risks that are inherent to the Privacy Act’s system of records;
    •    Determine if the SEC has established procedures and automated
         mechanisms to verify privacy control effectiveness;

1
  A NVA is the process of identifying, quantifying, and prioritizing (or ranking) the vulnerabilities found on a
network. It is performed using commercial-off-the-shelf tools used by assessors industry-wide.
2
  The HUB application is used by the SEC’s Division of Enforcement for case activity tracking and was
selected to be assessed based on the sensitive data contained within the application and the maturity of the
application.
Assessment of the SEC’s Privacy Program                                                      September 29, 2010
Report No. 485
                                                      iv
    •   Review governing Commission policy, guidance, and follow up on prior
        recommendations;
    •   Perform an assessment of an SEC regional office for proper handling of
        PII and adherence to SEC privacy policies and procedures;
    •   Perform a NVA at the LARO, Station Place, and OPC to evaluate the
        security posture of the SEC network in protecting PII data; and
    •   Perform an application assessment to ensure PII data is protected.

Results. Overall, the assessments conducted identified significant concerns with
the manner in which the SEC handles PII data. Improper handling could result in
a significant data breach and the possible exploitation of PII or sensitive data.
Further, the SEC’s ability to complete its mission could be jeopardized as a result
of lack of trust by external parties to share PII data.

Specifically, our review identified high level vulnerabilities affecting SEC
computer systems in the assessments of LARO as well as headquarters and the
OPC that are vulnerable to exploitation and infiltration. We further found that
while software vendors provide patches and updates to remediate security
vulnerabilities identified in their software, the SEC has not applied these critical
patches and updates, in some cases, going back as far as 2006. We also found
that the SEC has not been regularly reviewing the application of patches on a
consistent basis, which leaves the Commission vulnerable to attack.

Additionally, our assessments yielded additional areas of concerns. We found
that:

    •   Office of Information Technology’s (OIT) categorization of network
        vulnerabilities does not accurately reflect the actual risk to the
        environment;
    •   Base images deployed on laptops are not compliant with Federal Desktop
        Core Configuration (FDCC) requirements and all deviations are not
        disclosed as required by OMB;
    •   SEC laptops can connect to the SEC network via a local area network
        (LAN) port while simultaneously connected to an external wireless
        network, exposing the SEC network to potential compromise by a
        malicious attacker;
    •   The existence of design flaws in the development of the HUB application
        could potentially result in a compromise of data;
    •   PII at LARO is contained on shared drives without access controls,
        allowing all LARO employees unfettered access to documents and data
        that may be misused;
    •   LARO employees violated the SEC Rules of the Road by sending
        documents containing PII data to personal email accounts and by using
        portable media that was not encrypted. In addition, LARO employees did
        not adequately secure unencrypted portable media.
Assessment of the SEC’s Privacy Program                              September 29, 2010
Report No. 485
                                          v
Further, through interviews with OIT staff and a physical assessment of office
space and storage areas at headquarters’ offices, the OPC and LARO we found
that:

    •   Documents containing PII data were casually left on work tables, fax
        machines, and desks.
    •   File rooms, file cabinets, and offices containing very sensitive information
        were unsecured.
    •   The SEC has no final policies or procedures for the destruction of portable
        media storage devices, and secured storage bins were not accessible to
        all Commission staff.

These findings indicate a significant risk to the SEC network and the security of
the data/documents handled by the agency.

Although, OIT has already begun taking steps to mitigate and remediate risks by
progressively applying certain critical patches, significant additional work must be
done.

Summary of Recommendations. We provided the SEC with 20 specific and
concrete recommendations to address the vulnerabilities identified in the review.
Specifically, we recommend that OIT and the Chief Operating Officer:

        (1)   Apply patches and updates to the Commission’s networks,
              workstations and laptops on a timely basis;

        (2)   Implement procedures to regularly review whether a newly-released
              patch should or should not be applied to the environment;

        (3)   Evaluate OIT’s risk assessment process for scoring risk;

        (4)   Define a standard recognized character set for every response
              containing Hypertext Markup Language content;

        (5)   Ensure Federal Desktop Core Configuration compliance for all base
              images deployed on desktops and laptops;

        (6)   Submit a complete list of common security standard deviations to the
              National Institute of Standards and Technology per the Office of
              Management and Budget’s requirements;

        (7)   Ensure that wireless cards installed on laptops are turned off when
              connected to the SEC’s local area network;



Assessment of the SEC’s Privacy Program                             September 29, 2010
Report No. 485
                                          vi
        (8)   Implement an agency-wide policy regarding shared folder structure
              and access rights based on “least privilege;”

        (9)   Ensure personal storage tab files be saved to a protected folder;

        (10) Implement a policy that all portable media must be fully secured
             when not in use;

        (11) Appoint a privacy point of contact at each regional office;

        (12) Implement a clean desk policy or require all offices be locked when
             not occupied;

        (13) Conduct additional training to ensure that staff understands the
             handling of PII and sensitive data and their responsibilities in
             protecting SEC information;

        (14) Approve and implement operating procedures for hard drive wiping
             and media destruction;

        (15) Provide training on the handling, disposal, and storage of portable
             media storage devices.

In addition, we recommend that the LARO:

        (1)   Reemphasize the SEC Rules of the Road to LARO staff;

        (2)   Enforce its encryption policy to protect sensitive data received by the
              Commission;

        (3)   Ensure that all file rooms and file cabinets at LARO are secured; and

        (4)   Ensure that boxes of files in hallways are moved to secured areas.

Further, we recommend that the Office of Administrative Services provide
secured bins for disposal of portable media storage devices.




Assessment of the SEC’s Privacy Program                               September 29, 2010
Report No. 485
                                          vii
TABLE OF CONTENTS
Executive Summary ..................................................................................................... iv

Table of Contents ....................................................................................................... viii

Background and Objectives ................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 4

Findings and Recommendations ......................................................................... 6
     Finding 1: The SEC Network Vulnerability Assessment Results Showed
     Numerous Missing Vendor Issued Security Patches and Updates .................... 6
                  Recommendation 1..................................................................... 11
                  Recommendation 2..................................................................... 11

         Finding 2: SEC OIT’s Questionable Categorization of Network
         Vulnerabilities May Impact the Certification and Accreditation (C&A)
         Process ............................................................................................................ 12
                         Recommendation 3..................................................................... 13

         Finding 3: A Significant Vulnerability Was Identified in Assessment of
         HUB Application ............................................................................................... 14
                      Recommendation 4..................................................................... 15

         Finding 4: The Base Images Currently Being Deployed to SEC Laptops
         are Out of Date and Not Compliant with OMB Regulations .............................. 15
                      Recommendation 5..................................................................... 16
                      Recommendation 6..................................................................... 17

         Finding 5: SEC Laptops Can Be Connected to the SEC Network Via LAN
         Port While Simultaneously Connected to An External Wireless Network ......... 17
                      Recommendation 7..................................................................... 18

         Finding 6: Improper Handling of PII Data at LARO ......................................... 19
                      Recommendation 8..................................................................... 21
                      Recommendation 9..................................................................... 21
                      Recommendation 10 ................................................................... 23
                      Recommendation 11 ................................................................... 24
                      Recommendation 12 ................................................................... 24
                      Recommendation 13 ................................................................... 24
                      Recommendation 14 ................................................................... 26
                      Recommendation 15 ................................................................... 26
                      Recommendation 16 ................................................................... 26
                      Recommendation 17 ................................................................... 26
Assessment of the SEC’s Privacy Program                                                          September 29, 2010
Report No. 485
                                                         viii
    Finding 7: The SEC Has No Final Policies or Procedures for the
    Destruction of Portable Media Storage Devices ............................................... 27
                  Recommendation 18 ................................................................... 28
                  Recommendation 19 ................................................................... 28
                  Recommendation 20 ................................................................... 29
Appendices
    Appendix I: Acronyms. .................................................................................... 30
    Appendix II: Examples of PII Violations ........................................................... 31
    Appendix III: Scope and Methodology ............................................................. 32
    Appendix IV: Criteria ....................................................................................... 34
    Appendix V: List of Recommendations ........................................................... 35
    Appendix VI: Management Comments ............................................................ 38
    Appendix VII: OIG Response to Management’s Comments ........................... 46

Tables
     Table1: Summary of LARO Network Vulnerability Assessment Scan
       Results ............................................................................................................. 8
     Table 2: Summary of SP, OPC, and Re-scan of LARO Network
       Vulnerability Assessment Scan Results ........................................................... 9

Figures
     Figure 1: Unsecured Files Found in the Open Containing PII Data at
      LARO ............................................................................................................. 31
     Figure 2: Unsecured Files at LARO ................................................................ 31




Assessment of the SEC’s Privacy Program                                                         September 29, 2010
Report No. 485
                                                          ix
                     Background and Objectives
Background
Overview. The U.S. Securities and Exchange Commission (SEC or
Commission) Office of Inspector General (OIG) contracted the services of C5i
Federal, Inc (C5i) to perform an expert assessment of the SEC’s Privacy policies
and procedures, and the proper handling of Personally Identifiable Information
(PII) in its headquarters and regional offices. The SEC has headquarters offices
located in Washington, D.C., commonly referred to as Station Place (SP), and in
Alexandria, Virginia, at an Operations Center (OPC). The SEC also maintains 11
regional offices throughout the continental United States.

C5i’s expert assessment was conducted in two phases. First, in June 2010, C5i
assessed the SEC’s Los Angeles Regional Office’s (LARO) handling of PII data
through a physical inspection and interviews, and conducted a Network
Vulnerability Assessment (NVA) 3 of the SEC’s computer network. LARO was
selected as the regional office to be evaluated based on its size and the fact that
it was last assessed by the Office of Information Technology (OIT) in 2008 and
was not due to be evaluated again until 2011.

Second, in July 2010, C5i performed an NVA of SP and OPC to evaluate their
respective network security postures, and conducted a re-scan of seven of the
eight servers previously assessed in LARO. The purpose of the re-scan was to
determine if vulnerabilities identified during the June 2010 scans were
remediated by OIT. In addition, C5i conducted an application vulnerability
assessment on the SEC’s “HUB” 4 application to determine how the Commission
retained and secured its PII data within this application.

At the onset of the assessment, C5i met with the SEC’s Chief Information Officer
(CIO), and Privacy Officer to establish technical Rules of Engagement (ROE) due
to the requirements needed to perform the technical assessments (NVA and
Application Assessment). The technical ROE set forth the limitations,
requirements, and detailed specific data, information (i.e., network switches,
passwords, accounts, Internet access, private rooms, etc.), and access rights
and privileges C5i would need to carry-out assessments of the SEC’s PII. In




3
  A Network Vulnerability Assessment is the process of identifying, quantifying, and prioritizing (or ranking)
the vulnerabilities found on a network. It is performed using commercial off-the-shelf tools used by
assessors industry-wide.
4
  The HUB application is used by the SEC’s Division of Enforcement for case activity tracking and was
selected to be assessed based on the sensitive data contained within the application and the maturity of the
application.
Assessment of the SEC’s Privacy Program                                                   September 29, 2010
Report No. 485
                                                  Page 1
addition, the technical ROE identified the systems that were to be assessed and
was approved and signed by all respective parties on June 23, 2010. 5

One of the key elements of the technical ROE that was discussed extensively by
all parties was the OIG requirements pertaining to the appropriate level of
credentials (user id and passwords) necessary to perform the assessments. The
OIG informed OIT that a temporary test Domain Administrative account 6 was
required to conduct an effective review of SEC security posture as it related to
privacy. After the OIT Assistant Director of Infrastructure Engineering expressed
concern about the level of access agreed to in the ROE, the OIG agreed that it
would use an account with limited privileges (utilized previously by the General
Accountability Office in a previous review), however, a separate Test Domain
Administrator account would be created as a fall back, in the event that the
account assigned to the OIG experienced problems or was unable to satisfy the
requirements of the assessments.

Prior OIG Work Conducted in 2009/2010. The OIG conducted a prior Privacy
assessment in 2009/2010, 7 which resulted in one recommendation that remains
open. The report found that OIT had not finalized all its outstanding draft privacy
related policies and procedures nor had they been fully implemented throughout
the Commission.

Overview of Technical Assessments at LARO. C5i conducted its on-site
assessment at LARO from June 25 to July 2, 2010. LARO is located in
downtown Los Angeles and it consists of 162 SEC employees and contractors
and five interns. LARO has offices on the                                     and the
                            of a public, 25-story building and requires an SEC
access card to stop on the                  . The                   do not require
card access for the elevators as they are shared with other tenants, but card
access is required to enter the SEC space and conference rooms. The technical
and physical assessments at LARO were conducted over an eight-day period,
beginning on the morning of June 25, 2010. The assessments consisted of
performing an NVA of the servers, workstations/laptops deployed to LARO staff,
recently imaged laptops not yet deployed to personnel and a physical
assessment of the LARO facilities. The purpose of this work was to verify the
security of the network and workstations/laptops, the protection and proper
handling of electronic PII data, and a physical inspection of the facilities for the
proper handling of hard copy PII data.



5
   The respective parties were: the former Chief Information Officer; the Inspector General; the Chief
Information Security Officer; and the president and CEO of C5i Federal, Inc.
6
   A domain administrator account is an account that has power over all computers, including domain
controllers, within the domain. This means that this user account can logon to any computer, access any
file, and install any application by default.
7
   Report No. 475, Evaluation of the SEC Privacy Program, issued March 26, 2010.
Assessment of the SEC’s Privacy Program                                                  September 29, 2010
Report No. 485
                                                Page 2
In order to conduct an effective assessment, in accordance with the technical
ROE, the assessment of LARO was unannounced. Only the LARO Director, the
Associate Director and physical security personnel were informed about C5i’s
visit. The purpose of conducting this “surprise” assessment was to ensure that
information was not updated or modified prior to the work.

C5i began its technical assessment at LARO on June 25, 2010, at 4:00 p.m.,
pacific daylight time (PDT). C5i’s network assessments were performed on the
LARO servers, a sampling of 66 deployed workstations/laptops, and two newly
imaged laptops that had not yet been deployed to the field. The scans yielded a
significant number of high level vulnerabilities, 8 which were vetted through a
manual verification process to ensure the accuracy of the scan data and to
eliminate false positives. Once the vetting was completed, C5i and the OIG
immediately notified OIT, in accordance with the technical ROE. Numerous calls
were held with staff from OIT and the OIG on June 27, 2010 and the assessment
findings were presented and discussed during a June 28, 2010 teleconference
with the Chief Information Security Officer (CISO), the Associate Director of
Infrastructure Engineering, and the OIG.

In addition to the network vulnerabilities discovered, C5i’s assessment identified
emails containing PII sent to employees’ personal email addresses, shared
folders lacking access controls, and instances in which the base image for
laptops was not Federal Desktop Core Configuration (FDCC) compliant. These
are detailed in the findings section of this report.

Overview of Physical Assessment Conducted at LARO. As part of the
evaluation of LARO, C5i also conducted a physical evaluation of the SEC space
to verify the proper handling/storage of PII and compliance with SEC policies and
procedures. The staff at LARO was very accommodating and cooperative,
providing a secure work area, full access to the space both on and off hours, and
necessary access to storage areas. C5i physically inspected all areas of the
SEC space, file rooms located in the space, as well as storage space located in
                             . The physical assessment was conducted from June
25 to June 26, 2010. During the physical evaluation, C5i found evidence of PII
data being handled incorrectly – unsecured documents and files, and
unencrypted media. These findings are detailed in the findings section of this
report.

Overview of Assessment Conducted at SP, OPC, Re-scan of LARO, and
HUB application. After undertaking an analysis of current SEC applications that
stored PII data, the OIG chose to assess the Division of Enforcement’s
(Enforcement) HUB system to assess. The HUB system is a case management
and tracking system that has been in place since 2008, and is the primary

8
  We note that OIT disagrees with the OIG’s determination that the vulnerabilities should be considered at a
“high level.”
Assessment of the SEC’s Privacy Program                                                  September 29, 2010
Report No. 485
                                                 Page 3
system used by Enforcement’s staff attorneys, accountants, and branch chiefs to
track and manage ongoing matters.

Since the HUB application could not be taken offline to be assessed, in light of its
need to be continuously available to Commission staff, OIT provided an exact
duplicate of the data and allowed the assessment to be conducted in the
test/staging environment. Credentials were provided for the access required per
the technical ROE and the test was conducted July 23, 2010 through July 25,
2010.

In addition to the HUB application security assessment, C5i conducted a NVA on
the SP and OPC networks, as well as servers and workstations at both locations.
A re-scan of the LARO network was also performed. This re-scan yielded similar
results to the June 2010 scans, although there were fewer high level
vulnerabilities, demonstrating that some patching/remediation had taken place.

Detailed findings from the NVA for SP and OPC, the re-scans for LARO, and the
onsite application security assessment (OASA) of HUB are located in the findings
section of this report.

Overview of Assessment Privacy Policies and Procedures. In addition to
technical assessments, C5i conducted interviews with Privacy Office staff, and
reviewed privacy policies and procedures documents, system of records notices
(SORNs) and incidents involving loss of PII. These interviews and reviews were
performed throughout the assessment period, April to August 2010.

Objectives
The OIG contracted with C5i to conduct an assessment of SEC’s privacy policies
and procedures and handling of PII in accordance with the following specific
objectives:

        •   Evaluate the adequacy of the SEC’s Privacy Office’s policies and
            procedures, as well as its interaction and involvement with the
            Commission offices and divisions to ensure SEC employee’s privacy.

        •   Perform an in-depth analysis of the privacy requirements and identify
            the SEC processes and procedures that are used to conduct privacy
            reviews.

        •   Assess whether the Privacy Office responds to privacy issues in
            accordance with governing SEC, National Institute of Standards &
            Technology (NIST), Office of Management and Budget (OMB) and
            other government guidance and regulations to determine whether
            improvements are needed.
Assessment of the SEC’s Privacy Program                             September 29, 2010
Report No. 485
                                          Page 4
        •   Determine if the SEC has developed and implemented technical,
            managerial, or operational privacy-related controls to effectively
            mitigate known risks that are inherent to the Privacy Act’s system of
            records.

        •   Determine if the SEC has established procedures and automated
            mechanisms to verify privacy control effectiveness.

        •   Review governing Commission policy and guidance, and follow up on
            prior OIG recommendations.

        •   Perform an assessment of an SEC regional office for proper handling
            of Personally Identifiable Information and adherence to SEC privacy
            policies and procedures.

        •   Perform a Network Vulnerability Assessment at the Los Angeles
            Regional Office, Station Place, and the Operations Center to evaluate
            the security posture of the SEC network in protecting PII data.

        •   Perform an application assessment to ensure PII data is protected.




Assessment of the SEC’s Privacy Program                              September 29, 2010
Report No. 485
                                          Page 5
                 Findings and Recommendations

Finding 1: The SEC Network Vulnerability
Assessment Results Showed Numerous Missing
Vendor Issued Security Patches and Updates
           Critical patches and updates released by software vendors
           for vulnerabilities known to be exploitable have not been
           applied to the SEC network, which could jeopardize the
           confidentiality, integrity, and availability of PII or sensitive
           data. As a result, the network is vulnerable to compromise
           by known threats.

During the NVA of LARO, in June 2010, and SP and OPC, in July 2010, C5i
found that critical patches issued by software vendors to correct known
vulnerabilities had not been applied in a timely and effective manner. Applying
these critical patches would remediate or mitigate the likelihood of exploitation of
a vulnerability. Consequently, C5i found the SEC’s network to be vulnerable to
well-known weaknesses identified by vendors, and that it could be compromised
by a malicious user, resulting in a significant data breach and possible
exploitation of PII or sensitive data.

The selection of C5i’s assessment locations was based on the current OIT
schedule of field offices and population of staff. The LARO location provided the
OIG with a view into the security posture of a field office’s network that had not
been assessed by OIT in the past two years, and was not scheduled for an OIT
assessment until 2011. SP and OPC offices were selected due to the large
amount of network servers located at these facilities. During the assessments,
C5i used a number of commercial off-the-shelf and open source vulnerability
assessment tools, 9 and conducted manual checks to provide adequate cross-
checking and the capability to verify results and reduce or eliminate the number
of false positives. These tools classify vulnerabilities as high, medium and low,
based on their potential impact, severity, and potential for exploitability.

The technical ROE provided that the OIG was to receive the following network
credentials to provide sufficient access to conduct appropriate vulnerability scans
of the network:



9
    The commercial off-the-shelf vulnerability assessment tools used during C5i’s assessment included:

Assessment of the SEC’s Privacy Program                                                  September 29, 2010
Report No. 485
                                                   Page 6
     •   Three separate Microsoft Server Local Administrator accounts.
     •   Three separate Microsoft Domain Administrator accounts.
     •   Three separate workstation and laptop Administrator accounts.
     •   Three UNIX user and root level accounts, if applicable.

At the time of the assessment, the SEC network was comprised of 749 servers 10
and 5,268 workstation/laptops. C5i’s network vulnerability assessment sample
included eight network servers, 66 deployed workstations/laptops, and to two
newly-imaged laptops located at LARO, 11 and 59 network servers and three
workstations located in OPC and SP. C5i also conducted a re-scan of seven
servers in LARO to identify any patching updates since the scans in June. C5i’s
assessment did not include routers, network switches, firewalls, intrusion
detection or prevention systems, proxy servers, anti-virus, and related
infrastructure security systems.

Vendors Provide Patches and Updates. Software vendors provide patches
and updates to remediate security vulnerabilities identified in their software.
These patches and updates are made available through the software vendors’
website as they are released. It is the SEC’s responsibility to download, test, and
deploy these patches to their network to reduce the risk associated with the
vulnerability. NIST 800-53, Recommended Security Controls for Federal
Information Systems and Organization provides guidance to government
organizations on flaw remediation, e.g., patching and updates. The NIST
guidance provides that an organization should identify, report, and correct
information system flaws; test software updates related to flaw remediation for
effectiveness and potential side effects on organizational information systems
before installation; and incorporate flaw remediation into the organizational
configuration management process. 12

LARO Network Vulnerability Assessment. Scanning of the LARO network
began on June 25, 2010 at approximately 6:00 p.m. PDT and continued, non-
stop, through the early morning hours of June 28, 2010. Verification of the
accuracy, testing, and review of the findings to eliminate or reduce the number of
false positives identified during the assessment of the LARO network continued
through July 2, 2010. The results are described in Table 1 below, and illustrate
the SEC’s high level vulnerabilities identified during the assessment at LARO.
C5i used a combination of commercial off-the-shelf and open source vulnerability
assessment tools during the assessment and categorization by software vendors

10
   A server is a computer host on a network that runs an operating system, application software, database,
etc.
11
   These workstations/laptops had not been deployed by OIT, but did receive the current SEC OIT approved
image prior to conducting the assessment. In addition, these workstations/laptops were connected to the
SEC network to ensure that the latest patches and security updates from OIT were applied.
12
   The National Institute of Standards and Technology’s (NIST), Special Publication 800-53, Rev 3,
Recommended Security Controls for Federal Information Systems and Organization, August 2009, page F-
124.
Assessment of the SEC’s Privacy Program                                                 September 29, 2010
Report No. 485
                                                Page 7
to determine the vulnerability levels for each type of device. The assessment
identified 175 high-level vulnerabilities affecting eight servers, 67 high-level
vulnerabilities affecting two new workstations/laptops, and 1,613 high-level
vulnerabilities affecting 66 deployed workstations/laptops, as Table 1 below
indicates.

     Table 1: Summary of LARO Network Vulnerability Assessment Scan
     Results
     Vulnerability           Number of Vulnerabilities by Device
         Level                                              Deployed
                                New Workstations
                   Servers - 8                          Workstations and
                                 and Laptops - 2
                                                           Laptops - 66
     High             175               67                    1,613
     Medium            66               11                     287
     Low              824               163                   4,679
     Source: Generated by C5i

The significant number of high-level vulnerabilities increases the likelihood that
the SEC’s LARO network is vulnerable to exploitation and infiltration by a person
with ill-intent.

Per the ROE signed by OIT, OIG, and C5i, on June 27, 2010, C5i immediately
notified OIT of the high vulnerabilities found during the assessment. The
assessment findings were presented and discussed during a teleconference on
June 28, 2010 with the CISO, Associate Director of Infrastructure Engineering,
and the OIG. OIT did not take immediate emergency action when presented with
this evidence of the significant number of high-level vulnerabilities at LARO.
According to OIT, immediate emergency action was not taken because the
vulnerabilities did not present imminent danger and patches were subsequently
deployed according to prioritization.

SP and OPC Network Vulnerability Assessment, including a re-scan of
LARO. On July 24, 2010, C5i conducted a NVA of the SEC’s network servers,
workstations, and laptops at SP, OPC, and a re-scan of LARO servers.
Altogether, C5i assessed a total of 59 network servers at SP and OPC, 13 re-
scanned 7 LARO servers, 14 and assessed images from 3 SEC machines (2
workstations and one laptop). Upon conclusion of the assessment, as with the
assessment at LARO, C5i verified the accuracy of the test results to eliminate
and/or reduce any false positives identified during the assessment of SP, OPC,
and re-scan results of LARO.


13
  Of the 59 servers assessed at SP and OPC, 46 were from the SP and 13 were from the OPC.
14
  Due to time constraints, seven servers were re-scanned. The re-scan was performed to determine if
patches had been applied and the vulnerabilities remediated in approximately 30 days since the June 2010
assessment.
Assessment of the SEC’s Privacy Program                                                September 29, 2010
Report No. 485
                                               Page 8
Table 2, shown below, illustrates the high-level vulnerabilities we identified during
our assessment of SP, OPC, and the re-scan of the LARO servers. C5i used the
same commercial off-the-shelf and open source vulnerability assessment tools
and categorization processes as it did during the review of LARO in June 2010.
The assessment of SP, OPC, and re-scan of LARO identified 1,020 high-level
vulnerabilities affecting the 59 servers, 30 high-level vulnerabilities affecting three
new workstations/laptops, and 109 high-level vulnerabilities affecting the seven
re-scanned LARO servers.

Table 2: Summary of SP, OPC, and Re-Scan of LARO Network Vulnerability
Assessment Scan Results
 Vulnerability             Number of Vulnerabilities by Device
     level                        Deployed
                                                      Re-Scanned LARO
               Servers - 59   Workstations and
                                                          Servers - 7
                                 Laptops - 3
 High             1,020               30                      109
 Medium            356                 9                       45
 Low              5,204               239                     722
Source: Generated by C5i

Based on the assessment of SP, OPC, and re-scan of LARO, C5i identified a
signficant number of high level vulnerabilities affecting servers, workstations, and
laptops. The significant number of high-level vulnerabilities increases the
likelihood that the SEC’s SP, OPC, and LARO networks are vulnerable to
exploitation and infiltration by a person with ill-intent. C5i confirmed during the
re-scan of the LARO servers that OIT took action to begin implementing patches
and updates to the LARO servers to remediate or mitigate the risk of exposure;
however, there were still a significant number of high-level findings on each
server. Therefore, the SEC’s SP, OPC, and LARO networks remain highly
vulnerable to exploits by an individual with ill-intent.

Critical Updates and Patches Need to Be Applied. Based on the network
vulnerability assessment of components of the SEC’s enterprise network, C5i
determined that critical patches and vendor supplied updates had not been
applied going back as far back as 2006, resulting in years of potential
vulnerabilities that could have been exploited. The following patches have been
made available by software vendors:




Assessment of the SEC’s Privacy Program                               September 29, 2010
Report No. 485
                                          Page 9
        Software Vendor                                   Year Patches Made Available
        Sun Vulnerabilities
        Microsoft Vulnerabilities
        HP Vulnerabilities
        Realplayer
        Shockwave

As indicated above, C5i’s review found that OIT has not applied patches and
updates released by software vendors to the SEC network on a consistent basis.
In addition, C5i determined that some system patches were several versions
behind the current patch level that is recommended by the software vendor to
adequately remediate known software vulnerabilities. It should be noted that
major software vendors, such as Microsoft provide patches on a minimum of a
monthly basis. Patches are also issued by the vendors on an ad-hoc basis to
address a vulnerability that has severely impacted systems, e.g., in August 2010
a vulnerability was identified in Adobe Acrobat Reader that would allow remote
attackers to execute arbitrary code on a user’s computer. In addition, the longer
the delay between the time a known vulnerability has been reported to the
vendor and the time the patch is actually applied, the greater the chance that
hackers have found a means of exploiting the vulnerability. Further, other
agencies have established processes and procedures to regularly review
whether a newly-released patch applies to the agency’s needs and requirements.
C5i found in its assessment that the OIT has not been regularly reviewing the
application of patches on a consistent basis which leaves them vulnerable to
attack.

As a result of not implementing patches and vendor-issued security updates in a
timely manner, the SEC’s systems were found to be highly vulnerable to
compromise, infiltration, and exfiltration of PII and sensitive data. Further, lack of
a proactive patch management process increases the time and effort spent by
staff in responding after an exploitation has occurred. In the event that the SEC
is exploited and data is compromised, the Commission’s reputation and ability to
have the securities industry voluntarily provide data will become more
challenging, which could impact the SEC’s ability to meet its mission to protect
investors, maintain fair, orderly, and efficient markets, and facilitate capital
formation. The OIT should review its systems, procedures, and apply patches,
as appropriate, on a recurring, timely basis to the entire SEC enterprise network
to ensure adequate security of its systems.

Prior OIG Reviews. The SEC’s OIG performed independent assessments of the
confidentiality, integrity and availability of SEC data at OPC and its Northeast and
Southeast regional offices from 2004 to 2005, and issued two reports. 15 During

15
  Report No. 392, Northeast Regional Office (NERO) Information Management, issued February 14, 2005
and Report No. 400, Southeast Regional Office (SERO) Information Technology Management, issued
March 24, 2005.
Assessment of the SEC’s Privacy Program                                           September 29, 2010
Report No. 485
                                            Page 10
our present assessment, we compared the results of those Network Vulnerability
Assessments with the current 2010 results of OPC, SP, and LARO. Our findings
revealed that the security posture of the SEC network and systems was
significantly higher during the 2004 to 2005 timeframe. Based on this analysis,
C5i concluded that there has been a significant degradation in the SEC’s security
posture over the last five years and a significant amount of procedural, policy,
and management changes in OIT may have resulted in this degradation.




As indicated previously, since the OIG’s notification to OIT regarding the lack of
controls in applying patches and software vendor updates, the OIT has begun
implementing patches and updates; however, we determined during the
assessment of SP, OPC, and re-scans of LARO that many critical patches and
vendor supplied updates have not, as of yet, been applied. As a result, the SEC
network, workstations, and laptops remain highly vulnerable to attack by a
malicious user and could result in a data breach. Updating the SEC servers,
workstations, and laptops with the current available patches will significantly
reduce the number of vulnerabilities to the SEC network and lessen the likelihood
that the SEC’s network will be compromised and PII or sensitive data will be
exploited.

        Recommendation 1:

        The Office of Information Technology should apply patches and updates
        to the Commission’s networks, workstations, and laptops on a timely
        basis. All future patches should be applied within       of vendor
        release, with emergency patches being applied on an ad-hoc basis to
        protect the agency’s systems and data.

        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation.

        Recommendation 2:

        The Office of Information Technology should implement formal processes
        and procedures to regularly review whether a newly-released patch should
        or should not be applied to the environment.

        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix V for management’s full comments.

Assessment of the SEC’s Privacy Program                           September 29, 2010
Report No. 485
                                          Page 11
         OIG Analysis. We are pleased that the COO/Acting CIO concurred with
         this recommendation.

Finding 2: SEC OIT’s Questionable
Categorization of Network Vulnerabilities May
Impact the Certification and Accreditation (C&A)
Process
         The SEC’s questionable categorization of vulnerabilities may
         impact its internal C&A process.

Systems, such as the HUB application, are given a risk impact categorization
based on the Federal Information Process Publication 199 (FIPS 199) Standards
for Security Categorization of Federal Information and Information Systems.
These systems are categorized as low, moderate, or high impact based on the
level of adverse effect a data breach would have on an organization’s operations,
assets, and personnel. If a data breach occurs on a low impact system, the
impact is expected to be limited, a moderate system has a more serious impact,
and a high system is one that would have a severe or catastrophic impact in the
event of a data breach.

Separate from the FIPS 199 rating for systems, any vulnerabilities found on an
operating system such as Microsoft Windows, are classified with risk factors
using a combination of the National Vulnerability Database (NVD), 16 the
Common Vulnerability Scoring System (CVSS), 17 and Common Vulnerabilities
and Exposures (CVE) 18 Identifiers. All use the classification of high, medium,
low, or notes/Informational, depending on the severity of the vulnerability found
on the operating system.

According to NIST standards, an agency must receive an Authorization to
Operate (ATO) 19 prior to moving an application into the production environment




16
   NVD is a part of the NIST Computer Security Division and is sponsored by the Department of Homeland
Security’s National Cyber Security Division. It supports the U.S. government multi-agency (OSD, DHS,
NSA, DISA, and NIST) Information Security Automation Program. It is the U.S. government content
repository for the Security Content Automation Protocol (SCAP). All vulnerabilities that are reported to NVD
are siphoned through US–CERT (Computer Emergency Readiness Team).
17
   CVSS is a vulnerability scoring system designed to provide an open and standardized method for rating IT
vulnerabilities. CVSS helps organizations prioritize and coordinate a joint response to security vulnerabilities
by communicating the base, temporal and environmental properties of vulnerability.
18
   CVE Identifiers (also called "CVE names," "CVE numbers," "CVE-IDs," and "CVEs") are unique, common
identifiers for publicly known information security vulnerabilities.
19
   An ATO is the authorization, usually by the CISO, required to put a system into production.
Assessment of the SEC’s Privacy Program                                                   September 29, 2010
Report No. 485
                                                  Page 12
for common use. As part of NIST’s guidance for C&A, an ATO cannot be
granted if high level vulnerabilities have not been remediated. 20

C5i identified several SEC systems that would have a severe impact to the
SEC’s mission and operations in the event of a data breach. Further, C5i
identified multiple vulnerabilities categorized as “high” by vendors, including,
Microsoft and Adobe, who made these determinations using industry standard
ratings for vulnerabilities (e.g., the NVD, CVSS or CVE.) Notwithstanding the
fact that both C5i and these vendors identified multiple vulnerabilities at the
“high” level, OIT concluded that there were no “high” level vulnerabilities and
downgraded all their vulnerabilities to the “medium” level. C5i was unable to
understand how the SEC came to this conclusion and has concerns that OIT did
not adequately weight the determinations of the vendors in its risk
calculation/classification procedures.

OIT has developed its risk calculation to include other weighted values such as
mitigating controls (i.e., firewalls, intrusion detection systems) and the likelihood
of the occurrence of an event and used this classification process during the
mandatory Security, Test, and Evaluation 21 phase of the SEC’s C&A 22 process.

OIT’s determination to downgrade all vulnerabilities to a “medium” level
notwithstanding the identification by the vendors of multiple vulnerabilities at the
“high” level, allowed the SEC to receive an ATO, perhaps inappropriately. C5i
has concerns that by not classifying risks adequately, the SEC systems could
have been exposed to high-level vulnerabilities that can easily be exploited and
result in a data breach, unauthorized access, as well as disclosure of PII and
other sensitive information.

        Recommendation 3:

        The Office of Information Technology should evaluate its risk assessment
        process for scoring risk to ensure that it adequately weights all appropriate
        factors, including the identification of risk levels by vendors.




20
   The National Institute of Standards and Technology’s Special Publication 800-37, revision 1, Guide for
Applying the Risk Management Framework to Federal Information Systems: A Security Life Cycle Approach,
February 2010, page F-4.
21
   Security Test and Evaluation is an examination and analysis of the safeguards required to protect an
information system, as they have been applied in an operational environment, to determine the security
posture of that system.
22
   C&A is required by the Federal Information Security Management Act (FISMA) of 2002, and is the process
used to evaluate systems and major applications ensuring adherence to formal and established security
requirements that are well documented and authorized. All systems and applications that reside on U.S.
government networks must be evaluated with a formal C&A before being put into production. Systems are
evaluated annually. This is referred to as “Continuous Monitoring” - and are re-accredited every three years
or sooner if major changes to the systems are made.
Assessment of the SEC’s Privacy Program                                                  September 29, 2010
Report No. 485
                                                Page 13
        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation.

Finding 3: A Significant Vulnerability Was
Identified in Assessment of HUB Application
        The HUB application has a significant vulnerability that may
        be exploited resulting in data being compromised.

As discussed above, the OIG selected the HUB application for assessment
because it contains PII data and it is actively used by Commission staff. The HUB
application is a web-based, SEC-internal application used by Enforcement for
case management and tracking. It is accessible to all Enforcement staff, allowing
each staff member to manage its assigned caseload directly, and also provides
search and “read only” access to the entire Enforcement staff Division’s caseload.
The HUB application provides Enforcement staff “real time” access to their cases,
and could not be taken offline to conduct our assessment. Consequently, OIT
provided an exact duplicate of the application and supporting database in OIT’s
test environment for use by the OIG in this assessment.

C5i’s assessment was performed using commercial off-the-shelf products 23 that
are widely used throughout the industry to conduct this type of application
assessment. The assessment was performed onsite at SP and began on July 23,
2010 at approximately 9:00 p.m., eastern daylight time. C5i initially encountered
problems accessing the copy of the application data that was residing in the
test/staging environment, but were able to resolve the issues in coordination with
OIT. The assessment was successfully completed on July 24, 2010. The
assessment of the HUB application identified a significant vulnerability, as
described below.

The HUB Application Does Not Use a Defined Character Set. A character set
(also referred to as ‘Charset’) is a common coding language that can be
translated and understood across various applications and platforms. The HUB
application does not define a character set. Instead, the HUB application uses
HyperText Markup Language (HTML) to access web applications.

The use of a common character set becomes important when a user accesses
the HUB application. When a user enters a username and password to log on
the HUB application, HTML uses a universal coding language to translate the
user input into code that the computer understands (i.e., ones and zeros). This is
23
  The tools used to assess the application were
Assessment of the SEC’s Privacy Program                           September 29, 2010
Report No. 485
                                                  Page 14
then translated back to HTML when the data is returned to the Web browser (i.e.
Internet Explorer), and the user is then logged into the system.

Lack of a common character set becomes problematic because if a response
from the computer states that it contains HTML content but does not specify a
character set, the browser may then analyze the HTML and attempt to determine
which character set it appears to be using. Even if the majority of the HTML
actually employs a standard character set, the presence of non-standard
characters anywhere in the response may cause the browser to interpret the
content using a different character set, allowing for improper translation, which
can lead to unexpected results and possible security vulnerabilities in which non-
standard encodings can be used to bypass the HUB’s defensive filters.

         Recommendation 4:

         The Office of Information Technology should improve the HUB application
         by defining a standard recognized character set for every response
         containing Hypertext Markup Language content.

         Management Comments. The COO/Acting CIO concurred with this
         recommendation. See Appendix V for management’s full comments.

         OIG Analysis. We are pleased the COO/Acting CIO concurred with this
         recommendation.

Finding 4: The Base Images Currently Being
Deployed to SEC Laptops are Out Of Date and Not
Compliant with OMB Regulations
         Critical updates have not been applied to the base images
         being deployed by OIT, nor are they FDCC compliant.

C5i found through its assessment that the base image 24 deployed by OIT to SEC
laptops and desktops did not comply with the OMB FDCC mandate. 25 C5i found
that laptops that are distributed to SEC employees are provided with an image
that does not meet FDCC requirements including installation of current approved
vendor patches and updates. Further, the review identified that OMB’s FDCC
requirements, enacted to ensure that all equipment deployed throughout the U.S.
24
   A base image is the standardized image used by OIT to install on new laptops and desktops deployed by
OIT staff. A base image contains the operating system and all standard software that has been approved
for use at the SEC.
25
   The FDCC, an OMB mandate, requires that all Federal Agencies standardize the configuration of
approximately 300 settings on each of their Windows XP and Vista Computers. The reason for this
standardization is to strengthen Federal IT security by reducing opportunities for hackers to access and
exploit government computer systems.
Assessment of the SEC’s Privacy Program                                                   September 29, 2010
Report No. 485
                                                Page 15
Federal Government has a single, standardized configuration, have not been
achieved.

OMB’s memorandum M-07-11, “Implementation of Commonly Accepted Security
Configurations for Windows Operating Systems,” directs agencies to improve
their information security posture and reduce overall IT operating costs. The
memorandum further directs agencies that have Windows XP deployed and plan
to upgrade to the Vista operating system to adopt the security configurations
developed by NIST, the Department of Defense and the Department of
Homeland Security, referred to as FDCC. 26

During the assessment in June 2010, OIT provided two newly-imaged laptops at
LARO to complete the evaluation of base images deployed within the SEC for
evaluation.

Upon completing the assessment at LARO, C5i found that vendor patches and
updates supplied by Microsoft and required for FDCC compliance had not been
implemented. In addition, in July 2010, C5i conducted the same assessment of
three workstations, located at SP. This assessment found that these desktops
were also missing required patches and updates supplied by Microsoft and,
therefore, not FDCC compliant.

OMB Memorandum M-09-29, “FY2009 Reporting Instruction for the Federal
Information Security Management Act and Agency Privacy Management” states
“Agencies must document and provide NIST with any deviations from the
common security configurations (send documentation to checklists@nist.gov)
and be prepared to justify why they are not using them.” 27 C5i was able to
confirm that the SEC does maintain a list of exceptions/deviations from the
common security standards (i.e., FDCC). However, C5i found that OIT has not
submitted its deviations from FDCC to NIST, as required by OMB.

        Recommendation 5:

        The Office of Information Technology must update the base images for all
        laptops and workstations prior to deployment to ensure Federal Desktop
        Core Configuration compliance.




26
   The Office of Management and Budget, Memorandum M-07-11, “Implementation of Commonly Accepted
Security Configurations for Windows Operating Systems,” dated March 22, 2007.
http://www.whitehouse.gov/sites/default/files/omb/assets/omb/memoranda/fy2007/m07-11.pdf.
27
   The Office of Management and Budget, Memorandum M-09-29, “FY2009 Reporting Instruction for the
Federal Information Security Management Act and Agency Privacy Management,” dated August 20, 2009.
http://www.whitehouse.gov/sites/default/files/omb/assets/memoranda_fy2009/m09-29.pdf.

Assessment of the SEC’s Privacy Program                                         September 29, 2010
Report No. 485
                                            Page 16
        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation.

        Recommendation 6:

        The Office of Information Technology must submit a completed list of
        common security standard deviations to the National Institute of Standards
        and Technology per the Office of Management and Budget’s
        requirements.

        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation. However, we would request that the OIT report the
        common security standard deviations to NIST as soon as possible.

Finding 5: SEC Laptops Can Be Connected to the
SEC Network Via LAN Port While Simultaneously
Connected to An External Wireless Network
        Laptops can be simultaneously connected to both a local
        area network (LAN) port and an external wireless network,
        exposing the SEC network to potential infiltration.

During the assessment of unauthorized wireless access at LARO, C5i
found that the wireless access card in the two laptops provided by OIT for
the assessment did not automatically disable when the laptop is plugged
into the SEC network via the LAN port, although mitigating controls
preventing bridging between the LAN and wireless interfaces inhibiting
traffic flow between wireless and wired networks have been put in place.

C5i found that the wireless cards installed on laptops were in the state of
             which provides potential attackers access to the SEC’s
network and data. An active directory automated script should be
developed that would disable the wireless card on the laptop as soon as
the laptop is plugged into the SEC network via the LAN port.

The NIST Recommended Security Controls for Federal Information Systems and
Organizations provides the following guidance regarding Wireless Access
controls:
Assessment of the SEC’s Privacy Program                             September 29, 2010
Report No. 485
                                          Page 17
        The organization--

               a. Establishes usage restrictions and implementation guidance for
                  wireless access;
               b. Monitors for unauthorized wireless access to the information
                  system;
               c. Authorizes wireless access to the information system prior to
                  connection; and
               d. Enforces requirements for wireless connections to the information
                  system. 28

Failure to adhere to this guidance exposes the SEC’s network to potential
compromise by a malicious attacker without knowledge of the user. An attacker
looking for open wireless connections is able to see this open wireless
connection and use it to access and compromise the laptop, and potentially the
SEC network without user knowledge.

        Recommendation 7:

        The Office of Information Technology should turn off the wireless card
        installed on laptops when the laptops are connected to the Securities and
        Exchange Commission network via a Local Area Network port.

        Management Comments. The COO/Acting CIO did not concur with this
        recommendation. See Appendix VI for management’s full comments.

        OIG Analysis. We urge the COO/Acting CIO to reconsider its
        objection and turn off the wireless card installed on laptops as we
        recommend. Our review found that the wireless access card in the
        two laptops provided by OIT for the assessment did not
        automatically disable when the laptop was plugged into the SEC
        network, thus providing potential access to the SEC’s network and
        data. The solution we recommend removes any vulnerability as a
        result of this finding. We are pleased that OIT has agreed to
        research additional security precautions that may be enabled for
        the wireless configuration.




28
   National Institute of Standards and Technology’s (NIST), Special Publication 800-53, revision 3,
Recommended Security Controls for Federal Information Systems and Organization,
http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-final_updated-errata_05-01-2010.pdf.
Assessment of the SEC’s Privacy Program                                                  September 29, 2010
Report No. 485
                                               Page 18
Finding 6: Improper Handling of PII Data at LARO
       PII Data is being improperly handled, stored, encrypted, and
       emailed at LARO.

PII Data is Contained on Shared Drives Without Access
Controls, Allowing all LARO Employees Unfettered Access to
Documents Saved to the      Drive and to Other Employees’
Archived Email.
During the network and laptop assessments at LARO in June, 2010, C5i ran
scans on the shared drive     to verify whether or not PII data was contained in
shared resources and that access controls were properly enforced to ensure that
only those who have a need to access the data have that ability.

Having shared drives is a common practice for organizations as it provides a
repository for work that is on the network, and is backed up regularly, therefore
reducing the possibility of data loss in the event of a computer crash. It also
provides storage for employees of their work product so as not to use up the
available hard drive and memory on their workstations/laptops in storing large
amounts of information.

Most shared drives are set up providing certain levels of access to particular
individuals, so that all members of a team working on a certain project can
access data as their job function requires. Access to project folders on the
shared drives can be limited to the specific team members/employees associated
with that project. This is a common practice called “Least Privilege,” and is a
best practice that is used to lessen the possibility of confidential data
compromise, exposure, or leaks from within the agency to outside sources.

The NIST Recommended Security Controls for Federal Information Systems and
Organization provides guidance to organizations on Access Control, specifically
defining “Separation of Duties” and “Least Privilege:”

Access Control

        AC-5 Separation of Duties
              a. Separates duties of individuals as necessary, to prevent
              malevolent activity without collusion;
              b. Documents separation of duties; and
              c. Implements separation of duties through assigned information
              system access authorizations.



Assessment of the SEC’s Privacy Program                            September 29, 2010
Report No. 485
                                          Page 19
        AC-6 Least Privilege
              The organization employs the concept of least privilege, allowing
              only authorized accesses for users (and processes acting on behalf
              of users) which are necessary to accomplish assigned tasks in
              accordance with organizational missions and business functions. 29

SEC II 24-04.06.3, Access Control, provides guidance on access controls:

        Restricted File Access - All SEC information systems will prevent non-
        privileged accounts/users from modifying system level files and accessing
        system data and resources without a valid need-to-know. Where
        technically feasible, information access on SEC information systems will
        be restricted according to user role rather than by specific user identity.

In the assessment, C5i found that there are specific drives and folders setup for
employees to store and access case data; however, they also discovered that
employees are saving PII and case/project specific files on the    drive, to which
all employees at LARO have access.

In addition to the project files, employees have also backed up their email
archives (Personal Storage Tab files) to the     drive, and are therefore providing
all other LARO employees unfettered access to their email archive. These email
archives contain all emails sent during a specific timeframe – not necessarily
pertaining to just one subject. Therefore, these archives will not only contain
emails concerning certain work projects, but could also contain emails of a highly
confidential manner, e.g., employee performance, upcoming staff restructure and
personal email.

If PII or confidential data is going to be stored on the   drive, access control
rights need to be modified to provide Least Privilege. Permitting access without
exercising Least Privilege puts the data at risk for compromise (either accidental
or malicious), or in the case of any confidential emails, misuse by a disgruntled
employee or someone looking to discredit another person.

If an employee has malicious intent, with the current lack of access controls they
can copy all the files from the shared drive, not just their own projects’ data.
Moreover, an outsider can gain access if a computer is logged into the network
but is not secured and they would be able to copy all of the files without being
detected. Accordingly, all of the data on the shared drive may be compromised.




29
   See also National Institute of Standards and Technology’s (NIST) Special Publication 800-53, revision 3,
Recommended Security Controls for Federal Information Systems and Organization, page
http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-final_updated-errata_05-01-2010.pdf.
Assessment of the SEC’s Privacy Program                                                September 29, 2010
Report No. 485
                                               Page 20
        Recommendation 8:

        The Office of Information Technology should implement an agency-wide
        policy regarding shared folder structure and access rights. Network “Least
        Privilege” access should be put in place to ensure that only the employees
        involved with a particular case have access to that data. If an employee
        backs up additional information to the shared resource, only they and their
        supervisor should have access.

        Management Comments. The COO/Acting CIO partially concurred with
        the recommendation. See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO plans to
        implement an agency-wide policy regarding shared folder structures and
        access rights. While we are sensitive to the COO/Acting CIO concerns
        that limiting access to shared drives may impact business and group
        processes, we would encourage the COO/Acting CIO to reconsider
        approving such limitations as this approach would ensure that the data
        would not be compromised.

        We are pleased that the COO/Acting CIO plans to conduct a risk
        assessment of its network to evaluate this issue and find ways to reduce
        the risks identified in this finding.

        Recommendation 9:

        The Office of Information Technology will ensure Personal Storage Tab
        (.PST) files should be saved to a protected folder.

        Management Comments. The COO/Acting CIO did not concur with the
        recommendation. See Appendix VI for management’s full comments.

        OIG Analysis. While we are sensitive to the COO/Acting CIO’s concern
        that requiring .PST files to be saved to a protected folder may impact
        business and group process, we urge the COO/Acting CIO to reconsider
        its opposition to this solution to the risk identified in this finding. We are
        pleased that the COO/Acting CIO intends to research this matter and
        plans to identify a course of action to protect the sensitive information
        contained in these files.




Assessment of the SEC’s Privacy Program                                September 29, 2010
Report No. 485
                                          Page 21
LARO Employees are Violating Policy by Sending Documents
Containing PII to Personal Email Accounts and Using Portable
Media that is Not Being Encrypted.
        Emailing PII data or sensitive data to a personal email
        address or account is in direct violation of the SEC Rules of
        the Road. LARO follows the SEC policy of forced encryption
        for all portable media; however, it not being adhered to by
        staff.

Another phase of the LARO network and workstation assessment was to verify if
there was any mishandling of PII data through email, e.g., emailing documents
containing PII insecurely. This involved analyzing the Personal Storage Tab files
on the shared drives, as well as reviewing the email logs of sent and received
messages and any attachments in staff email accounts.

Through this effort, C5i discovered two issues – emailing of PII to personal email
accounts and a lack of encryption of emails. In order to protect the privacy of
sensitive PII data, C5i provided examples to OIT as evidence of their findings;
however, examples were not included in the report due to the sensitivity of the
information. Examples of PII data we found that were stored in unsecured file
cabinets and an unsecured office space can be found in Appendix II.
Furthermore, in interviews with an IT specialist at LARO, C5i discovered that staff
is unhappy and frustrated with the current forced encryption solution –
and has become impatient with how long it takes to save documents to portable
media when they need to go out in the field. As a result, some employees have
been saving unencrypted versions of the data on to CD’s, which were found to be
left unsecured on desktops during the physical assessment at LARO. In
addition, C5i discovered that while data is received on encrypted CD’s, staff
makes multiple unencrypted copies for use during the investigations.

Staff Sending Unencrypted Documents to Personal Email Accounts.
Rather than saving documents to removable media in an encrypted format, C5i
found, in an email archive, that an attorney emailed unencrypted documents to a
personal email address. This is a violation of SEC policy and a potentially
reckless practice.

SECR 24-04-A01, SEC Rules of the Road, specifically states “DO NOT use e-
mail to send material that is sensitive or that contains personally identifiable
information (PII) to your personal e-mail account(s).”

Should the personal computer of the individual be compromised (malware, virus,
etc.) in any way, the PII data, as well as any other sensitive information emailed
would result in a data breach that the individual may not be aware of. Also, if the
employees’ login credentials for their personal email are compromised in any
Assessment of the SEC’s Privacy Program                            September 29, 2010
Report No. 485
                                          Page 22
way, this information would be readily available and could be used against the
commission maliciously, as well as possibly compromise an investigation.

Unencrypted Portable Media. In September 2008, the OIT CTO sent a
memorandum to all SEC Division/Office Directors and Regional Directors
outlining the SEC’s portable media encryption policy. At that time, the regional
offices were given two options – forced encryption of all portable media or
optional encryption that is determined by the user. LARO adopted the SEC
Policy of Forced Encryption for all portable media.

A physical walkthrough of the LARO office space, (cubes, offices, work areas, file
rooms), was conducted on Saturday, and Sunday, June 26-27, 2010. With the
exception of the file storage in                                  of the building,
once inside the occupied space using card key access, we found that none of the
offices were locked.

Upon inspection of the areas, we found CD’s containing documentation
pertaining to current investigations on desks, on top of file cabinets, file boxes,
etc., all easily accessible. A random sampling of CD’s was examined by opening
the CD’s using the assessment laptops and none of them were encrypted. 30

While the random sampling of CD’s did not contain any PII data, nevertheless,
LARO has a policy of forced encryption of all portable media, and the fact that
these CD’s were unencrypted violates that policy.

While we did not find PII in our sampling, the ability to make unencrypted copies
of CD’s containing sensitive information is a dangerous practice – especially
multiple copies. It is impossible for anyone to know all the information contained
on a CD and whether or not there is PII, as well as keeping track of multiple
copies of data. One of the copies can be lost or misplaced or removed from the
office, putting that data a serious risk for a breach.

        Recommendation 10:

        The Los Angeles Regional Office (LARO) Director should reemphasize the
        SEC Rules of the Road to LARO staff through training and awareness
        programs and the policy needs to be strongly enforced.

        Management Comments. LARO concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the LARO concurred with this
        recommendation.

30
  C5i was unable to determine if the CD’s were created prior to the LARO’s implementation of the SEC
Policy of Forced Encryption for all portable media.
Assessment of the SEC’s Privacy Program                                              September 29, 2010
Report No. 485
                                              Page 23
        Recommendation 11:

        The Los Angeles Regional Office Director should enforce its encryption
        policy to protect sensitive data the Securities and Exchange Commission
        receives.

        Management Comments. LARO concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the LARO concurred with this
        recommendation.

        Recommendation 12:

        The Chief Operating Officer should implement a policy that all portable
        media must be fully secured (i.e., locked in file cabinets) when not in use.

        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation.

        Recommendation 13:

        The Chief Operating Officer should appoint a privacy point of contact at
        each regional office to ensure compliance with Commission policies and
        procedures.

        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation.

Hard Copy, Physical Documents Containing PII Are Unsecured

        Due to the nature of the Commission’s work, the need for
        hard copy documents for investigations is necessary, but
        there is a lack of physical security for the boxes of files, as
        well as individual documents and portable media (CD).

In the walk-through of LARO, C5i assessed the physical office space on the
partial floors occupied by the SEC               and the full floors      , as
well as                            file storage rooms. The           storage
Assessment of the SEC’s Privacy Program                              September 29, 2010
Report No. 485
                                          Page 24
room is accessible with card key access and the “cages” where the archives are
stored are secured by padlock, to which only IT and facilities staff has keys. The
         storage area is accessible by access card, and all SEC employees
have access to this area.

The SEC has an approved and implemented policy on the protection of sensitive
data as follows:

        II 24-04.02.01 (01.0) SEC Implementing Instruction – Sensitive
        Data Protection states “All SEC sensitive information is protected in
        a manner commensurate with its sensitivity, value, and criticality,
        regardless of the media on which it is stored, the information
        systems that process, store, or transmit the information, or the
        methods by which the information is moved.”

As well, the SEC Rules of the Road address the proper handling of PII provide as
follows:

        SECR 24-04-A01 SEC Rules of the Road reinforces this by stating:

        •   Do Not leave PII material in uncontrolled areas.
        •   Do Not grant access to PII material to individuals who are not
            authorized to handle such information.

On the SEC-occupied floors, there are open work areas, including employee
offices/cubes, libraries, and large file rooms containing files pertaining to current
LARO investigations. During the walk-through, C5i found the following areas of
concern.

Unsecured Documents and Files. The rooms designated as “file rooms” on the
occupied floors are not secured. They do not require card key access and the
doors are left wide open. These rooms contain hard copy evidence pertinent to
current investigations. The sheer volume of the files in these rooms means it
would be very difficult for anyone to realize in a timely manner whether
information had been removed.

Additionally, boxes of files in hallways and unsecured offices. Again, these are
files pertaining to current investigations, and having them unsecured can lead to
serious data compromise.

In the library areas, C5i found spreadsheets containing PII left on work tables.
These spreadsheets contained PII such as: full names and addresses, account
numbers, and tax ID/social security numbers. This is information that is highly
desirable to anyone with the intent of identity theft. C5i also found documents
containing PII left on fax machines and on desk chairs for filing. Any of these

Assessment of the SEC’s Privacy Program                               September 29, 2010
Report No. 485
                                          Page 25
documents could have been removed, duplicated, or the data contained copied
by a person with malicious intent by anyone who has approved access to the
office area, which not only includes SEC employees, but also cleaning crews,
security guards, and other approved personnel.

        Recommendation 14:

        The Los Angeles Regional Office (LARO) Director should ensure all file
        rooms and file cabinets at LARO are secured.

        Management Comments. LARO concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the LARO concurred with this
        recommendation.

        Recommendation 15:

        The Los Angeles Regional Office Director should ensure that boxes of
        files stored in hallways are moved to secured areas.

        Management Comments. LARO concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the LARO concurred with this
        recommendation.

        Recommendation 16:

        The Chief Operating Officer should either implement a clean desk policy to
        ensure sensitive information is properly secured, or require that all offices
        be locked when not occupied.

        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation.

        Recommendation 17:

        The Chief Operating Officer should conduct additional training to ensure
        that staff fully understands the rules and policies concerning the handling
        of Personally Identifiable Information and sensitive data and their


Assessment of the SEC’s Privacy Program                              September 29, 2010
Report No. 485
                                          Page 26
        responsibilities in protecting the Securities and Exchange Commission
        information.

        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation.

Finding 7: The SEC Has No Final Policies or
Procedures for the Destruction of Portable Media
Storage Devices
        The SEC does not have formal, documented, approved, and
        well-communicated policies or procedures for the destruction
        of portable media storage devices.

SEC staff regularly use portable media storage devices, such as thumb drives
and CD’s, to save files, including files containing sensitive, confidential, non-
public, and/or PII data. C5i found that the SEC does not have a formal,
documented, or approved policy for destruction of portable media storage
devices in place, contrary to NIST standards and security best practices.

The NIST Recommended Security Controls for Federal Information Systems and
Organization also provides guidance on Media Protection. This guidance also
suggests, “The organization develops, disseminates, and reviews/updates: a. A
formal, documented media protection policy that addresses purpose, scope,
roles, responsibilities, management commitment, coordination among
organizational entities, and compliance; and b. Formal, documented procedures
to facilitate the implementation of the media protection policy and associated
media protection controls.” 31

The SEC Implementing Instructions – Sensitive Data Protection, II 24-04.02.01
(01.0), April 6, 2006, provides instructions on the protection of sensitive data and
the need for shredding of sensitive data. The Implementing Instructions state,
“Disposal/Destruction. Sensitive materials must be destroyed by shredding or by
other approved means that provide a similar level of destruction.”

During the review, C5i found that OIT has drafted operating procedures
concerning the destruction of portable media devices titled, Hard Drive Wiping


31
   NIST, Special Publication 800-53, revision 3, Recommended Security Controls for Federal Information
Systems and Organization, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
Assessment of the SEC’s Privacy Program                                               September 29, 2010
Report No. 485
                                              Page 27
and Media Destruction. 32 These draft operating procedures outline OIT’s
proposed policy for disposal of media storage devices; however, they do not
identify the roles and responsibilities of the originator, i.e., the employee. In
addition, this draft operating procedure has not been formalized or approved by
senior management.

C5i found during interviews in July and August 2010 with SEC Headquarters
(HQ) staff members that HQ staff did not know where or how to properly dispose
of portable media storage devices containing sensitive information. Furthermore,
the physical inspection of HQ, the OPC, and LARO found that secured
containers for the shredding and/or disposal of portable media storage devices
were not conveniently allocated throughout the facilities.

The lack of formal, documented, and well-communicated policies and procedures
could result in the mishandling and improper disposal of media containing
sensitive and/or PII data. In addition, the lack of conveniently locatable, secured
containers could discourage individuals from properly disposing of portable
media storage devices, and increase the likelihood of unauthorized individuals
accessing sensitive and PII data.

        Recommendation 18:

        The Office of Information Technology should finalize, approve and
        implement its operating procedures for Hard Drive Wiping and Media
        Destruction, and make staff aware of the procedures and their roles and
        responsibilities for the disposal of portable media storage devices. These
        operating procedures should include information concerning the roles and
        responsibilities of all Commission employees in the proper destruction of
        portable media storage devices.

        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation.

        Recommendation 19:

        The Office of Information Technology should provide Commission staff
        training on the handling, disposal, and storage of portable media storage
        devices.



32
  DRAFT Operating Procedure: Hard Drive Wiping and Media Destruction, OP 24-05.02.06.10 (01.0) –
January 26, 2010.
Assessment of the SEC’s Privacy Program                                         September 29, 2010
Report No. 485
                                           Page 28
        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation.

        Recommendation 20:

        The Office of Administrative Services should provide secured bins for the
        disposal of portable media storage devices that are easily accessible to all
        Commission employees and the use and locations of these bins should be
        clearly communicated to all employees.

        Management Comments. OAS concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that the OAS concurred with this
        recommendation.




Assessment of the SEC’s Privacy Program                             September 29, 2010
Report No. 485
                                          Page 29
                                                                       Appendix I


                                          Acronyms
C&A                       Certification and Accreditation
CIO                       Chief Information Officer
CISO                      Chief Information Security Officer
CPO                       Chief Privacy Officer
CSIRT                     Computer Security Incident Response Team
CVE                       Common Vulnerabilities and Exposures
CVSS                      Common Vulnerability Scoring System
FDCC                      Federal Desktop Core Configuration
FIPS                      Federal Information Processing Standards
HP                        Hewlett-Packard
HQ                        Headquarters
LARO                      Los Angeles Regional Office
NIST                      National Institute of Standards and Technology
NVA                       Network Vulnerability Assessment
NVD                       Network Vulnerability Database
OASA                      Onsite Application Security Assessment
OGC                       Office of General Counsel
OIG                       Office of Inspector General
OIT                       Office of Information Technology
OMB                       Office of Management and Budget
OPC                       Operations Center
OWASP                     Open Web Application Security Project
PAW                       Privacy Assessment Worksheet
PDT                       Pacific Daylight Time
PIA                       Privacy Impact Assessment
PII                       Personally Identifiable Information
PIRT                      Privacy Incident Response Team
ROE                       Rules of Engagement
SAOP                      Senior Agency Official for Privacy
SEC                       Securities and Exchange Commission
SORN                      System of Records Notice
SP                        Station Place
USGCB                     United States Government Configuration Baseline




Assessment of the SEC’s Privacy Program                            September 29, 2010
Report No. 485
                                           Page 30
                                                                  Appendix II


                       Examples of PII Violations

                 Figure 1: Unsecured Files Found in the Open
                 Containing PII Data at LARO




                 Source: Generated by C5i




                Figure 2: Unsecured Files at LARO




                 Source: Generated by C5i




Assessment of the SEC’s Privacy Program                        September 29, 2010
Report No. 485
                                            Page 31
                                                                                 Appendix III


                          Scope and Methodology

Scope. The scope of our review covered calendar year 2008 to July 2010 and
includes the SEC headquarters offices and divisions (includes the OPC and
LARO). To ensure the protection of the Commission’s employees, contractors
and customer’s PII information, our scope also included a review of OIT’s
oversight of Commission offices and divisions and the SEC’s governing privacy
policies and procedures, NIST guidance, OMB guidelines and other governing
guidance and regulations. Our review also included select workstations, laptops
and servers. We further performed a network vulnerability assessment at LARO
and OPC to evaluate the security posture of the SEC’s network in handling and
protecting PII data. Lastly, we followed up on a previous issued OIG report’s
recommendations that pertained to privacy and the protection of PII data. 33

Methodology. In evaluating the adequacy of the SEC’s privacy policies and
procedures, OIT’s interaction and involvement with the Commission’s offices and
divisions we identified the universe of where privacy data resides and conducted
an assessment of the area. We further interviewed OIT staff to ascertain their
knowledge of federal guidance on the protection of PII information and the proper
procedures for protecting PII. We also reviewed the Annual Privacy Awareness
Training guidance and policy that is issued to SEC employees and contractors, to
verify that it addressed all issues surrounding the responsibility of Commission
employees and contractors to protect PII information.

To meet the objective of performing an in depth analysis of privacy requirements
and to identify the SEC’s process and procedures that are used to conduct
privacy reviews, we interviewed OIT staff, conducted a physical inspection of the
office space that is occupied by SEC staff at LARO, conducted an assessment of
the LARO network servers, and conducted an assessment on a sample selection
of its deployed and un-deployed workstations. To ensure compliance with SEC
policies and procedures regarding the handling and protection of PII data we
conducted a physical inspection at LARO by walking through offices and storage
areas. We documented our findings by taking photographic evidence of PII
information that was not properly stored.

Further, to meet the objective to assess whether the SEC has developed and
implemented technical, managerial, or operational privacy-related controls to
effectively mitigate know risks that are inherent to the Privacy Act’s system of
records, C5i assessed 66 workstations/laptops, 8 servers, and 2 freshly imaged
laptops, which provided an in-depth picture of LARO’s network security posture.
We further conducted a vulnerability assessment at the OPC. We also reviewed
33
  SEC Report No. 475, Evaluation of the SEC Privacy Program, March 26, 2010.
Assessment of the SEC’s Privacy Program                                        September 29, 2010
Report No. 485

                                             Page 32
                                                                     Appendix III

the shared drive     to verify access controls in protecting information and
backed up Outlook Personal Storage Tab files to ensure that PII transmitted via
email was properly protected. Lastly, we conducted a HUB application
assessment to evaluate the security posture of the application in protecting PII
data.




Assessment of the SEC’s Privacy Program                           September 29, 2010
Report No. 485

                                          Page 33
                                                                      Appendix IV


                            Criteria and Guidance

C5i used the following guidelines for this evaluation:

    •   OMB Memorandum 07-11, “Implementation of Commonly Accepted
        Security Configurations for Windows Operating System”
    •   OMB Memorandum 08-22, “Guidance on the Federal Desktop Core
        Configuration”
    •   OMB Memorandum 09-29, “FY2009 Reporting Instructions for the Federal
        Information Security Management Act and Agency Privacy Management”
    •   OMB Memorandum 03-22, “OMB Guidance for Implementing the Privacy
        Provisions of the E-Government Act of 2002”
    •   NIST SP 800-70. “National Checklist Program for IT Products—Guidelines
        for Checklist Users and Developers”
    •   NIST SP 800-122, “Guide to Protecting the Confidentiality of Personally
        Identifiable Information”
    •   NIST SP 800-53 Rev 3, “Recommended Security Controls for Federal
        Information Systems”
    •   NIST SP 800-40, “Creating a Patch and Vulnerability Management
        Program”
    •   NIT SP 800 -111, “Guide to Storage Encryption Technologies for End
        User Devices”
    •   The Privacy Act of 1974
    •   Computer Security Act of 1987
    •   SEC/OIT, Privacy Impact Assessment Guide, January 2007
    •   SEC Privacy Analysis Worksheet Template
    •   SEC Privacy Impact Assessment Template
    •   Safeguarding Personally Identifiable Information (PII)
    •   SEC Rules of the Road
    •   SEC Regulation 23-2a, Safeguarding Non-Public Information
    •   SEC, IT Security Implementing Instruction, II 24-04.02.01 (01.0), Sensitive
        Data Protection




Assessment of the SEC’s Privacy Program                            September 29, 2010
Report No. 485
                                          Page 34
                                                                       Appendix V


                        List of Recommendations

Recommendation 1:

The Office of Information Technology should apply patches and updates to the
Commission’s networks, workstations, and laptops on a timely basis. All future
patches should be applied within        of vendor release, with emergency
patches being applied on an ad-hoc basis to protect the agency’s systems and
data.

Recommendation 2:

The Office of Information Technology should implement formal processes and
procedures to regularly review whether a newly-released patch should or should
not be applied to the environment.

Recommendation 3:

The Office of Information Technology should evaluate its risk assessment
process for scoring risk to ensure that it adequately weights all appropriate
factors, including the identification of risk levels by vendors.

Recommendation 4:

The Office of Information Technology should improve the HUB application by
defining a standard recognized character set for every response containing
Hypertext Markup Language content.

Recommendation 5:

The Office of Information Technology must update the base images for all
laptops and workstations prior to deployment to ensure Federal Desktop Core
Configuration compliance.

Recommendation 6:

The Office of Information Technology must submit a completed list of common
security standard deviations to the National Institute of Standards and
Technology per the Office of Management and Budget’s requirements.




Assessment of the SEC’s Privacy Program                             September 29, 2010
Report No. 485
                                          Page 35
                                                                      Appendix V


Recommendation 7:

The Office of Information Technology should turn off the wireless card installed
on laptops when the laptops are connected to the Securities and Exchange
Commission network via a Local Area Network port.

Recommendation 8:

The Office of Information Technology should implement an agency-wide policy
regarding shared folder structure and access rights. Network “Least Privilege”
access should be put in place to ensure that only the employees involved with a
particular case have access to that data. If an employee backs up additional
information to the shared resource, only they and their supervisor should have
access.

Recommendation 9:

The Office of Information Technology will ensure Personal Storage Tab (.PST)
files should be saved to a protected folder.

Recommendation 10:

The Los Angeles Regional Office (LARO) Director should reemphasize the SEC
Rules of the Road to LARO staff through training and awareness programs and
the policy needs to be strongly enforced.

Recommendation 11:

The Los Angeles Regional Office Director should enforce its encryption policy to
protect sensitive data the Securities and Exchange Commission receives.

Recommendation 12:

The Chief Operating Officer should implement a policy that all portable media
must be fully secured (i.e., locked in file cabinets) when not in use.

Recommendation 13:

The Chief Operating Officer should appoint a privacy point of contact at each
regional office to ensure compliance with Commission policies and procedures.




Assessment of the SEC’s Privacy Program                            September 29, 2010
Report No. 485
                                          Page 36
                                                                        Appendix V


Recommendation 14:

The Los Angeles Regional Office (LARO) Director should ensure all file rooms
and file cabinets at LARO are secured.

Recommendation 15:

The Los Angeles Regional Office Director should ensure that boxes of files
stored in hallways should be moved to secured areas.

Recommendation 16:

The Chief Operating Officer should either implement a clean desk policy to
ensure sensitive information is properly secured, or require that all offices be
locked when not occupied.

Recommendation 17:

The Chief Operating Officer should conduct additional training to ensure that staff
fully understands the rules and policies concerning the handling of Personally
Identifiable Information and sensitive data and their responsibilities in protecting
Securities and Exchange Commission information.

Recommendation 18:

The Office of Information Technology should finalize, approve and implement its
operating procedures for Hard Drive Wiping and Media Destruction, and make
staff aware of the procedures and their roles and responsibilities for the disposal
of portable media storage devices. These operating procedures must include
information concerning the roles and responsibilities of all Commission
employees in the proper destruction of portable media storage devices.

Recommendation 19:

The Office of Information Technology should provide Commission staff training
on the handling, disposal, and storage of portable media storage devices.

Recommendation 20:

The Office of Administrative Services should provide secured bins for the
disposal of portable media storage devices that are easily accessible to all
Commission employees and the use and locations of these bins should be
clearly communicated to all employees.

Assessment of the SEC’s Privacy Program                              September 29, 2010
Report No. 485
                                          Page 37
                                                                                 Appendix VI


                         Management Comments
                                    MEMORANDUM
                                          September 23, 2010

  To:             David Kotz, Inspector Genera~ OIG
                  Jacqueline Wilson, Assistant Inspector General, OIG

  From:           Jeffrey Heslop, Chief Operating Officer, OCOO & Acting Chief
                  Information Officer, OIT

   Subject:       Management Response to OIG Report 485, Privacy Program Assessment

  Thank you for the opportunity to comment on the recommendations in the draft "Privacy
  Program Assessment" report. The Office ofInformation Technology and the Office of
  the Chief Operating Officer fully support the obligation of the SEC to protect the privacy
  of individuals.

  Out of the fifteen recommendations that fall directly within my purview, we concur with
  twelve of them, do not concur with two, and partially concur with one. For the items we
  do not concur with, we do think additional analysis is required to detennine our actual
  risk posture and what alternate actions may be appropriate to bring the operational risk to
  an acceptable level. We will begin conducting such analysis immediately.

  In closing, thank you again. We appreciate the opportunity to respond to your
  recommendations and value the results of your assessments to help manage our risk
  posture. Responses to each recommendation are below.

  Recommendation 1:

  The Office ofInformation Technology should apply patches and updates to the
  Commission's networks, workstations, and laptops on a timely basis. All future patches
  should be applied within 30 days ofvendor release, with emergency patches being
  applied on an ad-hoc basis to protect the agency's systems and data.

   Response to Recommendation 1:

   The Office ofInformation Technology concurs with this recommendation for Windows
   based server and desktop systems. All future required patches for Windows systems will
   be applied within 30 days from the date that OIT has reviewed and approved the patch.
   Unix/Linux patches are released by the vendors as bundles on a quarterly basis. For
   UNIX/Linux server systems, there are several applications that require testing by
   business users to ensure the applications continue to function once the patch bundle has
   been applied. All future required UNIX/Linux patches will be applied within 60 days
   from the date that OIT has reviewed and approved the patch.




Assessment of the SEC’s Privacy Program                                       September 29, 2010
Report No. 485
                                              Page 38
                                                                                   Appendix VI



  Recommendation 2:

  The Office ofInformation Technology should implement formal processes and
  procedures to regularly review whether a newly-released patch should or should not be
  applied to the environment.

  Response to Recommendation 2:

 The Office ofInformation Technology concurs with this recommendation and will
 formalize the decision process to deploy or not deploy patches.

 Recommendation 3:

 The Office ofInformation Technology should evaluate its risk assessment process for
 scoring risk.

 Response to Recommendation 3:

 The Office ofInformation Technology concurs with this recommendation and will
 reevaluate its risk scoring process to include multiple factors of the risk equation.

 Recommendation 4:

 The Office ofInformation Technology should improve the HUB application by defming
 a standard recognized character set for every response containing Hypertext Markup
 Language content.

 Response to Recommendation 4:

 The Office ofInformation Technology concurs with this recommendation. We have
 defined and tested a recognized character set for HUB. It will be deployed into
 production by 15 October 2010.

 Recommendation 5:

 The Office ofInformation Technology must update the base images for all laptops and
 workstations, prior to deployment, to ensure Federal Desktop Core Configuration
 compliance.

 Response to Recommendation 5:

 The Office ofInfonnation Technology concurs with this recommendation. The current
 process relies on the Active Directory group policy that is applied to the system when the
 system is connected to the production network and the user logs on to the system for the
 first time. OIT will establish a process that will also incol"JXlrate FDCC compliance



Assessment of the SEC’s Privacy Program                                         September 29, 2010
Report No. 485
                                            Page 39
                                                                                    Appendix VI


  settings (aside from setting exceptions that have been documented) into the local security
  policies of our base desktop image.

  Recommendation 6:

  The Office ofInformation Technology must submit a completed list of common security
  standard deviations to the National Institute of Standards and Technology per the Office
  ofManagement
  of Management and Budget's requirements.

  Response to Recommendation 6:

  The Office ofInfonnation Technology concurs with this recommendation. OIT
                                                                          OtT will
  establish configuration standards based on NIST guidance and provide NIST with any
  deviations from such guidance by I July 2011.

  Recommendation 7:

  The Office ofInformation Teclmology
                            Technology should tum off the wireless card installed on
  laptops when the laptops are cotulected
                               ootulected to the SEC network via a Local Area Network
  port.

  Response to Recommendation 7:

  The Office ofInformation Technology does not concur with this recommendation. Our
  current standard' network configuration
                            oonfiguration for laptops with wireless cards prevents access to
  the Local Area Network interface from a wireless network by disabling the ability to
  bridge and to route between the two network cards. However, OIT OtT will research
  additional security precautions that may be enabled for our wireless configuration.

  Recommendation 8:

  The Office ofInfonnation Technology should implement an agency-wide policy
  regarding shared folder structure and access rights. Network "Least Privilege" access
  should be put in place to ensure that only the employees involved with a particular case
  have access to that data. Ifan employee backs up additional information to the shared
  resource. only they and their supervisor should have access.
  resource,

  Response to Recommendation 8:

   The Office ofInfonnation Technology concurs with implementing an agency-wide
   policy regarding shared folder structures and access rights. OIT does not concur with
   the remainder of the recommendation. Preventing a user from being able to write to a
  ·shared resource, which is what a backup is doing, could significantly impact business and
   group processes. OIT
                     OtT will conduct a risk assessment to determine the pervasiveness of
   this issue and determine whether to accept the risk or implement process and/or tools to
   reduce the risk to an acceptable level.




Assessment of the SEC’s Privacy Program                                          September 29, 2010
Report No. 485
                                            Page 40
                                                                                     Appendix VI



   Recommendation 9:

  The Office of Information Technology will ensure Personal Storage Tab CPST) files
  should be saved to a protected folder.

  Response to Recommendation 9:

  The Office of Infurmation Technology does not concur with this recommendation.
  Preventing the saving of .PST files to shared drives could have a significant impact on
  business and group processes. OIT will need to conduct some research as to the
  pervasiveness of .PST files being stored in shared folders. Following that research, OlT
  will identify an appropriate course of action to protect the sensitive information that may
  be contained in them.

  Recommendation 12:

  The Chief Operating Officer should implement a policy that all portable media must be
  fully secured (i.e. locked in file cabinets) when they are not in use.

  Response to Recommendation 12:

  The Office ofthe Chief Operating Officer concurs with this recommendation. OCOO
  will publish a policy requiring portable media be properly secured when not in use.

  Recommendation 13:

  The Chief Operating Officer should appoint a Privacy point of contact at each regional
  office to ensure compliance with Commission policies and procedures.

  Response to Recommendation 13:

  The Office ofthe Chief Operating Officer concurs with this recommendation. OCOO
  will work with the regional offices to identify Privacy points of contact and document
  their responsibilities.

  Recommendation 16:

  The Chief Operating Officer should either implement a clean desk policy to ensure
  sensitive information is properly secured, or require that all offices be locked when not
  occupied.




Assessment of the SEC’s Privacy Program                                           September 29, 2010
Report No. 485
                                             Page 41
                                                                                    Appendix VI



 Response to Recommendation 16:

 The Office of the Chief Operating Officer concurs with this recommendation. OCOO
 will establish a policy for the proper protection of sensitive information on portable
 media or in other portable formats, such as paper.

 Recommendation 17:

 The Chief Operating Officer should conduct additional training to ensure that staff fully
 understands the rules and policies concerning the handling of PI I and sensitive data and
 their responsibilities in protecting SEC information.

 Response to Recommendation 17:

 The Office of the Chief Operating Officer concurs with this recommendation. The SEC
 already requires annual security and privacy training for all staff. In addition, the Privacy
 Officer will conduct an analysis to identify areas of staff or individuals who may require
 additional training on policies concerning the protection of sensitive information. When
 identified, they may be required to repeat their security and privacy training or receive
 more focused training as resources permit.

 Recommendation 18:

 The Office ofInformation Technology should finalize, approve and implement its
 operating procedures for Hard Drive Wiping and Media Destruction, and make staff
 aware of the procedures and their toles and responsibilities for the disposal of portable
 storage media devices. These operating procedures must include information concerning
 the roles and responsibilities of all Commission employees in the proper destruction of
 portable storage media devices.

 Response to Recommendation 18:

 The Office oflnformation Technology concurs with this recommendation. The
 procedures for media destruction will be finalized and distributed.

 Recommendation 19:

 The Office oflnformation Technology should provide Commission staff training on the
 handling, disposal, and storage of portable storage media devices.

 Response to Recommendation 19:

 The Office ofInformation Technology concurs with this recommendation. Training on
 the handling, disposal, and storage of portable media devices will be provide to support
 additional guidance being developed by OIT and OCOO.


Assessment of the SEC’s Privacy Program                                          September 29, 2010
Report No. 485
                                            Page 42
                                                                                    Appendix VI



                                          MEMORANDUM

                                          September 24, 2010


       TO:           H. David Katz
                     Inspector General

      FROM:          SbaronSbeelwt~~
                     Associate Executive Director
                     Office of Administrative Services

      SUBJECf:       OAS Management Response to Draft. Report No. 485, Privacy Program
                    AM~sm~t                                    .

      This memorandum is in response to the Office ofInspector General's Draft Report No.
      485, Privacy Program Assessment. Thank: you for the opportunity to review and respond
      to this report. We concur with the reconunendation addressed to OAS.

      Reeommadation 20:

      OAS concurs. We will assess the type. quantity and locations needed fur sccurc disposal
      bins fur portable media devices. We will communicate to all SEC staffthe location and
      use ofthe secure bins.


      Cc:
      Jeffery Heslop. auef Operating Officer
      Rosalind T}OOIl, Regional Director, Los Angeles Regional Office




Assessment of the SEC’s Privacy Program                                           September 29, 2010
Report No. 485
                                             Page 43
                                                                                                   Appendix VI



                            Privacy Program Assessment Audit
                      LARO Response to Recommendations 10, 11, 14, & 15
      Our responses to the recommendations directed to the LARO, recommendationsIO, II, 14 and 15, are
      noted below. We would.also like to note that we object to page vi of the executive summary that states,
      "LARO employees are routinely violating policy by sending documents containing PIT data to personal
      email accounts and by using portable media that is not encrypted." The audit report only found one
      instance of a LARO employee sending a document containing PIT to a personal email account; further, the
      IG's contractor was unable to determine if the unencrypted CDs were created prior to the LARO's
      implementation of the SEC Policy of Forced Encryption for all portable media. Accordingly, the above
      language is overstated and unsupported and we request that it be removed.

      Recommendation 10

      The LARO Director should reemphasize the SEC Rules of the Road to LARO staff through training and
      awareness programs and the policy needs to be strongly enforced.

      Response to Recommendation 10

      The LARO concurs with Recommendation 10.

      After receiving the IG's draft report, the LARO Director reissued guidance to all employees on
      compliance with Commission and regional policies and procedures on privacy and the proper handling of
      non-public information. (The LARO Director's September I, 2010 and December 9, 2009 e-mails are
      attached.) The LARO will also conduct mandatory training for all employees on compliance with
      Commission and regional policies and procedures on privacy and the proper handling of non-public
      information to reinforce the written guidance.

      Recommendation 11

      The LARO Regional Director should enforce its encryption policy to protect the sensitive data received
      by the Commission.

      Response to Recommendation 11

      The LARO concurs with Recommendation II.

      As stated above, after receiving the IG's draft report, the LARO Director reissued guidance to all
      employees on compliance with Commission and regional policies and procedures on privacy and the
      proper handling of non-public information. (The LARO Director's September 1,2010 and December 9,
      2009 e-mails are attached.) The September 1,2010 e-mail specifically states that "in our office, we
      follow a mandatory encryption policy for ALL portable media. Do not attempt to circumvent this
      process." The LARO will also conduct mandatory training for all employees on compliance with
      Commission and regional policies and procedures on privacy and the proper handling of non-public
      information to reinforce the written guidance.




Assessment of the SEC’s Privacy Program                                                         September 29, 2010
Report No. 485
                                                    Page 44
                                                                                                Appendix VI


  Recommendation 14

  The LARO Director should ensure all file rooms and file cabinets at LARO are secured.

  Respoose to Recommendadon 14

  The recommended steps are not entirely within the purview of the LARD Director, as they implicate both
  funding and security issues. The LARO Director will work with the Office ofAdministrative Services, as
  well as the Managing Executives and Chief Operating Officer, to find and implement the best solutions
  for properly identifying and securing hard-copy PII at the LARD. This may entail a range of steps,
  including increased use of Iron Mountain storage, locks, access cards and additional training of staff to
  heighten their awareness of the protections needed for PII.

  Recommendation 15

  The LARa Regional Director should (ensure thatl boxes of files stored in hallways should be moved to
  secured areas.

  (The bracketed and highlighted information needs to be added to the report.)

  Response to Recommendation 15

  The LARD concurs with Recommendation 15 but requests a clarification in the finding that formed the
  basis of this recommendation.

  Page 24 of the IO's draft report states that "boxes of files are amassed in hallways and unsecured offices."
  We request that this 1aQguage be amended to clarify that there was only one discrete area that had boxes
  in the hallway. The several unsecured offices that contain boxes are currently war rooms. Ail boxes will
  be removed from these offices by September 30, 2010 with the exception of one office which functions as
  a war room for the Countrywide case scheduled for trial in October 2010. We will ensure that the
  Countrywide boxes are removed when the trial concludes.

  After receiving the 10's draft report, the LARa Director reissued guidance to all employees on
  compliance with Commission and regional policies and procedures on privacy and the proper handling of
  non-public information. (The LARO Director's September 1, 2010 and December 9, 2009 e-mails are
  attached) The September I, 2010 e-mail specifically states that "boxes in hallways/common areas
  ...must be removed immediately and placed in your office or sent to Iron Mountain. We will be
  monitoring this on a monthly basis."




Assessment of the SEC’s Privacy Program                                                      September 29, 2010
Report No. 485
                                                   Page 45
                                                                    Appendix VII


      OIG Response to Management’s Comments

We are pleased that the COO/Acting CIO fully concurred with 12 of the 15
recommendations that pertained to its office. However, we urge the COO/Acting
CIO to reconsider its opposition to recommendation Nos. 7 and 9, and its partial
opposition to recommendation No. 8, as the solutions we provided would remove
any vulnerability and protect the SEC’s information. We are pleased that the
COO/Acting CIO acknowledges that the risks we identified in connection with
recommendation Nos. 7, 8 and 9, need to be addressed and that OIT intends to
conduct research to determine an appropriate course of action to remedy the
concerns we identified.

We are also pleased that the LARO Regional Director concurs with all four
recommendations that were addressed to her office, and has taken immediate
steps to provide controls to ensure PII data is properly handled and secured.

Additionally, we are pleased that OAS concurred with the recommendation
addressed to its office and has indicated that office will provide secured bins to
dispose of portable media storage in accessible locations within the Commission.

We believe that the implementation of all these important recommendations will
significantly improve the SEC’s ability to protect PII data and ameliorate the
vulnerabilities identified in this review.




Assessment of the SEC’s Privacy Program                           September 29, 2010
Report No. 485
                                          Page 46
                     Audit Requests and Ideas
The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
